UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
CIVIL ACTION

THOMAS LAM

NO. 19-01785

VERSUS

SECTION: “A”(l)

ROBERT TANNER, WARDEN
REPORT AND RECOMMENDATION

Petitioner, Thomas Lam, is a Louisiana state prisoner incarcerated at the Rayburn
Correctional Center in Angie, Louisiana. He filed this federal application seeking habeas corpus
relief pursuant to 28 U.S.C. § 2254. For the following reasons, IT IS RECOMMENDED that
the petition be DISMISSED WITH PREJUDICE.
On August 12, 2015, on the second day of his jury trial, petitioner elected to accept a plea
bargain offered by the state. Pursuant to that plea agreement, he pleaded guilty to seven offenses
and was sentenced as follows.- one count of manslaughter, forty years; two counts of attempted
second degree murder, forty-five years without benefit of parole, probation, or suspension of
sentence on each offense; one count of armed robbery' with a firearm, forty-five years without
benefit of parole, probation, or suspension of sentence; one count of possession of alprazolam, five
years; one count of possession of oxycodone, five years; and one count of possession of morphine,
five years. It was ordered that those sentences run concurrently.

i

On August 3, 2016, petitioner filed an application for post-conviction relief with the state
district court.2 That application was denied on October 20, 2017.3 His related writ applications

1 State Rec., Vol. 4 of 4, transcript of August 12, 2015; State Rec., Vol. 1 of 4, guilty plea form.
2 State Rec., Vol. 2 of 4.
3 State Rec., Vol. 3 of 4, Ruling dated October 20, 2017.

were then denied by the Louisiana Fourth Circuit Court of Appeal on December 13, 2017, and
the Louisiana Supreme Court on February 11. 201.9.'-------------------------------------------On February 21,2019, petitioner filed the instant federal application seeking habeas corpus
relief pursuant to 28 U.S.C. § 2254.6 The state filed a response conceding that the application is
timely and that petitioner exhausted his remedies in the state courts; however, the state argued that
petitioner’s claims should be denied on the merits.7 Petitioner filed a reply to the state s response.8
L Standards of Review
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) comprehensively
overhauled federal habeas corpus legislation, including 28 U.S.C. § 2254. Amended subsections
2254(d)(1) and (2) contain revised standards of review for pure questions ot fact, pure questions
of law, and mixed questions of both. The amendments modified a federal habeas court’s role in
reviewing state prisoner applications in order to prevent federal habeas ‘retrials’ and to ensure that
state-court convictions are given effect to the extent possible under law.

Bell v. Cone, 5o5 U.S.

685, 693 (2002); accord Langley v. Prince, 926 F.3d 145, 155 (5th Cir. 2019) (noting that the
AEDPA imposes a “relitigation bar” on claims adjudicated on the merits by the state court).
As to pure questions of fact, factual findings are presumed to be correct and a federal court
will give deference to the state court’s decision unless it “was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding.’' 28
U.S.C. § 2254(d)(2); seealso 28 U.S.C. § 2254(e)(1) (“In a proceeding instituted by an application

4 State v. Lam. No. 2017-IC-0927 (La. App. 4th Cir. Dec. 13,2017); State Rec., Vol. 3 of 4.
5 State v. Lam. 263 So. 3d416 (La. 2019); State Rec., Vol. 4 of4.
6 Rec. Doc. 1.
7 Rec. Doc. 14.
8 Rec. Doc. 17.

2

for a writ of habeas corpus by a person in custody pursuant to the judgment of a State court, a
determination-of-a-factual-issuemiade by a State court shall_bl^_PIgsunred to_be_co^rrect. The
applicant shall have the burden of rebutting the presumption of correctness by clear and convincing
evidence.”).
As to pure questions of law. and mixed questions of law and fact, a federal court must defer
to the state court’s decision on the merits ot such a claim unless that decision was contrary to, or
involved an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States.” 28 U.S.C. § 2254(d)(1). Courts have held that the ‘“contrary
to’ and ‘unreasonable application’ clauses [of § 2254(d)(1)] have independent meaning.

Bell,

535 U.S. at 694.
Regarding the “contrary to” clause, the United States Fifth Circuit Court of Appeals has
explained:
A state court decision is contrary to clearly established precedent if the state court
applies a rule that contradicts the governing law set forth in the [United States]
Supreme Court’s cases, A state-court decision will also be contrary to clearly
established precedent if the state court confronts a set of facts that are materially
indistinguishable from a decision of the [United States] Supreme Court and
nevertheless arrives at a result different from [United States] Supreme Court
precedent.
Wooten v. Thaler. 598 F.3d 215,218 (5th Cir. 2010) (footnotes, internal quotation marks, ellipses,
and brackets omitted).
Regarding the “unreasonable application” clause, the United States Supreme Court has
held: “[A] state-court decision is an unreasonable application of our clearly established precedent
if it correctly identifies the governing legal rule but applies that rule unreasonably to the facts of a
particular prisoner’s case.” mite v. Woodall, 572 U.S. 415, 426 (2014). However, a federal

3

habeas court must be mindful that “an unreasonable application is different from an incorrect one.”
Bell, 535 U.S.-at694;-accord-Harringtonv. Richter, 562U.S.-86,102-03 (201.1).(“Section 2254(d)
reflects the view that habeas corpus is a guard against extreme malfunctions in the state criminal
justice systems, not a substitute for ordinary error correction through appeal.” (quotation marks
omitted)); Langley, 926 F.3d at 156 (“The Supreme Court has repeatedly held that it is not enough
to show the state court was wrong.”); Puckett v. Epps, 641 F.3d 657, 663 (5th Cir. 2011)
(“Importantly,:unreasonable" is not the same as 'erroneous' or ‘incorrect ; an incorrect application
of the law by a state court will nonetheless be affirmed if it is not simultaneously unreasonable. ).
Therefore:
“[T]he [AEDPA’s] relitigation bar forecloses relief unless the prisoner can show
the state court was so wrong that the error was well understood and comprehended
in existing law beyond any possibility for fainninded disagreement. In other words,
the unreasonable-application exception asks whether it is beyond the realm of
possibility that a fairminded jurist could agree with the state court.
Langley, 926 F.3d at 156 (citations and quotation marks omitted). “Under AEDPA’s relitigation
bar, the very existence oi reasonable disagreement forecloses relief.

IcL at 170.

Further, the Supreme Court has expressly cautioned:
Section 2254(d)(1) provides a remedy for instances in which a state court
unreasonably applies this Court’s precedent; it does not require state courts to
extend that precedent or license federal courts to treat the failure to do so as enor.
Thus, if a habeas court must extend a rationale•boforeit. can apply to the facts_at
hand, then by definition the rationale was not clearly established at the time of the
state-court decision, AEDPA’s carefully constructed framework would be
undermined if habeas courts introduced rules not clearly established under the guise
of extensions to existing law.
Woodall, 572 U.S. at 426 (citations and quotation marks omitted). Therefore, when the Supreme
Court’s “cases give no clear- answer to the question presented, let alone one in [the petitioner’s]

4

favor, it cannot be said that the state court unreasonably applied clearly established Federal law.”
Wright v. Van Patten. 552 U.S. -12(U-26-(2008) (quotation marks and brackets omitted). y____
In summary, “AEDPA prevents defendants - and federal courts

from using federal

habeas corpus review as a vehicle to second-guess the reasonable decisions of state courts.
Renico v. Lett, 559 U.S. 766, 779 (2010) (emphasis added). The Supreme Court has expressly
warned that although “some federal judges find [28 U.S.C. § 2254(d)] too confining,” it is
nevertheless clear that “all federal judges must obey” the law and apply the strictly deferential
standards of review mandated therein. Woodall, 572 U.S. at 417.
II. Petitioner’s Claims9
A. Ineffective Assistance of Counsel
Two of petitioner’s claims concern purported ineffective assistance of counsel. He states:
Petitioner was denied his right to effective assistance of counsel under the
Sixth and Fourteenth Amendments to the United States Constitution when trial
counsel advised Petitioner to plead guilty without notifying him [of] the true nature
of the offenses and its required elements.10
He further states:
Petitioner was denied his right to effective assistance of counsel under the
Sixth and Fourteenth Amendments to the United States Constitution when trial
counsel failed to notify him of relevant facts that prove his innocence. Counsel also
failed to comply with his request, and chose to maliciously withhold evidence with
-the-krtent to coerce the-guilty pleaJ-1----------------------------------------------------------------Those claims were denied on the merits by the state courts. The state district court stated.
I
I first address the claims pertaining to ineffective assistance of counsel. To
establish such a claim, an inmate must show that his attorney’s performance [was]
9 For ease of analysis, petitioner’s claims are discussed in a different order than listed in the petition.
10Rec. Doc. 1-1, p. 5.
11 Id at p. 6.

5

so deficient as to fall below an objective standard of reasonableness and that he
suffered prejudice as a result of the deficiencies, “so serious as to deprive the
defendant of a:fair trial, a trial whose result-is reliable.’— See Strickland.y.
Washington. 466 U.S. 668, 687 (1984); see also State v. Jenkins, 14-1148, pp. 6-7
(La. App. 4 Cir. 5/6/15), 172 So. 3d 27, 33-34.
Mr. Lam claims that his trial counsel failed to impeach Detective Ryan
Vaught; failed to investigate and subpoena witnesses in light of several differing
eyewitness accounts; failed to challenge an identification of him when it was
discovered the witness suffered from paranoid schizophrenia; and failed to mount
a defense based on a ballistics report which shows the gun recovered from Mr.
Lam’s residence did not match the casings recovered at the scene. He also claims
that counsel’s ineffectiveness led Mr. Lam to plead guilty without understanding
the charges against him, and without the benefit of full discovery', specifically an
autopsy report of the victim and two NOPD supplemental reports. Finally, Mr.
Lam claims that the trial judge did not inform him of the essential elements of each
offense when he entered his plea and that trial counsel tailed to object to this
deficiency.
A
As an initial observation, the record reveals the overwhelming evidence
pointing to Mr. Lam as the perpetrator. Mr. Lam appears to take issue with minor
discrepancies in Det. Vaught’s police report and his testimony at the preliminary
hearing. Counsel’s alleged failure to impeach Det. Vaught with respect to these
discrepancies (e.g., writing “him” when the individual was female) can hardly be
considered deficient performance. Further, contrary to Mr. Lam s assertion, the
descriptions given by witnesses to police are, on the whole, very consistent, with
nearly inconsequential differences, which are to be expected from eyewitness
accounts. As to the victim’s diagnosis of schizophrenia, counsel had the benefit of
this information well before Mr. Lam decided to plead guilty. Counsel had also
received the ballistics report prior to the trial date. Effective counsel does not mean
counsel must advance every argument the defendant urges, and the Strickland
standard presumes, unless shown otherwise, that counsel's performance was within
the wide range of effective representation. See State ex rel. Sparkman v. State, 15-1726ti>p. 2-3 (La. 10/17/16), -2-Q2^So^3dM88^494^frM,amLariaLcounsel was,
aware of the victim’s diagnosis and the ballistics results, yet chose to advise his
client to plead guilty in light of all the other evidence. I do not find counsel s
choices amount to constitutionally deficient performance.
B
As to Mr. Lam’s claims of ineffective assistance regarding his pleas of
guilty, it is well-settled that he must show deficient performance and that there is a
reasonable probability that, but for counsel’s errors, he would not have pled guilty
and would have insisted on going to trial. See Hill v. Lockhart, 474 U.S. 52-58-59
(1985). And, the validity of a guilty plea turns on whether the defendant was

6

informed of his constitutional rights under Boykin v. Alabama, 395 U.S. 238
(1969), and whether he knowingly and voluntarily waived them. The guilty plea
transcript-reveals that Mr. Lam-was presentwhen the trial court read into the record
the amended counts to which he would plead guilty to and the corresponding
sentences which were to be imposed under the agreement. The trial judge also read
the charges which had been dismissed. Defense counsel requested and was given
ample time to complete the plea form and to consult with Mr. Lam and his family.
The trial judge informed Mr. Lam of his constitutional Boykin rights (right against
self-incrimination, right to trial by jrny, right to confront one’s accusers), and when
asked whether he was entering the guilty pleas freely and voluntarily, Mr. Lam
replied “Yes.” When asked if he had any questions, Mr. Lam replied, “No.”
Though the trial judge did not state the essential elements of every offense, it is
clear that Mr. Lam entered his guilty pleas voluntarily. See State v, Juniors, 032425, pp. 60-61 (La. 6/29/05), 915 So. 2d 291,334-35 (“The ultimate inquiry under
Boykin is whether the plea represents a voluntary and intelligent choice among the
alternative courses of action open to the defendant.”).
Thus, there is no evidence that either the trial judge or counsel erred.
Moreover, especially in light of the overwhelming evidence of Mr. Lam’s guilt,
including a positive identification of him as the shooter, and considering that he
faced a mandatory life sentence had he proceeded to trial and lost, Mr. Lam has not
shown that, but for counsel’s alleged errors, he would not have pled guilty. See
Lockhart, at 58-59.
C
With respect to missing discovery, the record shows that the prosecution
turned over the victim’s autopsy report to defense counsel prior to trial. The record
indicates that trial counsel did in fact receive all the documents Mr. Lam complains
about, although some were apparently missing from the file which he received post­
trial. Notably, Mr. Lam is in possession of a vast amount of documents relating to
his case, many of which are not even found in the record. It is unclear, and Mr.
Lam does not explain, how the few missing documents are essential to his claims.
In any event, there is no indication that counsel proceeded without the benefit of
full discovery from the state.12
The Louisiana Fourth Circuit Court of Appeal thereafter also denied relief, finding “no error” in
the district court’s ruling.13 The Louisiana Supreme Court then likewise denied the related writ
application, succinctly stating: “Relator fails to show that he received ineffective assistance of

12 State Rec., Vol. 3 of 4, Ruling dated October 20, 2017, pp. 2-4.
13 State v. Lam. No. 2017-K-0927 (La. App. 4th Cir. Dec. 13,2017); State Rec., Vol. 3 of 4.

7

counsel under the standard of Strickland v. Washington, 466 U.S. 668,104 S. Ct. 2052, 80 L.Ed.2d
-674 (1984). »14
Because an ineffective assistance of counsel claim presents a mixed question of law and
fact, this Court must defer to the state court decision rejecting petitioner’s claims on the merits
unless the decision was “contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States.’' 28 U.S.C. §
2254(d)(1); Moore v. Cockrell 313 F.3d 880, 881 (5th Cir. 2002). Further, the United States
Supreme Court has explained that, under the AEDPA, federal habeas corpus review of an
ineffective assistance of counsel claim is in fact doubly deferential:
The pivotal question is whether the state court’s application of the
Strickland standard was unreasonable. This is different from asking whether
defense counsel’s performance fell below Strickland's standard. Were that the
inquiry, the analysis would be no different than if, for example, this Court were
adjudicating a Strickland claim on direct review of a criminal conviction in a United
States district court. Under AEDPA, though, it is a necessary premise that the two
questions are different. For purposes of § 2254(d)(1), an unreasonable application
of federal law is different from an incorrect application of federal law. A state court
must be granted a deference and latitude that are not in operation when the case
involves review under the Strickland standard itself.
A state court’s determination that a claim lacks merit precludes federal
habeas relief so long as fairminded jurists could disagree on the correctness of the
state court’s decision. Yarborough v. Alvarado. 541 U.S. 652, 664,124 S.Ct. 2140,
158 L.Ed.2d 938 (2004). And as this Court has explained, “[Evaluating whether a
rule application was unreasonable requires considering the rule’s specificity. The
more general the rule, the more leeway-courts have in reaching outcomes m caseby-case determinations.” Ibid. “[I]t is not an unreasonable application of clearly
established Federal, law for a state court to decline to apply a specific legal rule that
has not been squarely established by this Court.” Knowles v. Mirzayance, 556 U.S.
, 129 S.Ct. 1411, 1413-14, 173 L.Ed..2d 251 (2009) (internal quotation
marks omitted).

14 State v. Lain, 263 So. 3d 416 (La. 2019); State Rec., Vol. 4 of 4.

8

Harrington v. Richter. 562 U.S. 86, 101 (2011) (citation omitted). The Supreme Court then
explained:
Surmounting Strickland’s high bar is never an easy task. An ineffectiveassistance claim can function as a way to escape rules of waiver and. forfeiture and
raise issues not presented at trial, and so the Strickland standard must be applied
with scrupulous care, lest intrusive post-trial inquiry threaten the integrity of the
very adversary process the right to counsel is meant to serve. Even under de novo
review, the standard forjudging counsel’s representation is a most deferential one.
Unlike a later reviewing court, the attorney observed the relevant proceedings,
knew of materials outside the record, and interacted with the client, with opposing
counsel, and with the judge. It is all too tempting to second-guess counsel’s
assistance after conviction or adverse sentence. The question is whether an
attorney’s representation amounted to incompetence under prevailing professional
norms, not whether it deviated from best practices or most common custom.
Establishing that a state court’s application of Strickland was unreasonable
under § 2254(d) is all the more difficult. The standards created by Strickland and
§ 2254(d) are both highly deferential, and when the two apply in tandem, review is
doubly so. The Strickland standard is a general one, so the range of reasonable
applications is substantial. Federal habeas courts must guard against the danger of
equating unreasonableness under Strickland with unreasonableness under §
2254(d). When § 2254(d) applies, the question is not whether counsel’s actions
were reasonable. The question is whether there is any reasonable argument that
counsel satisfied Strickland’s deferential standard.
IcE at: 105 (emphasis added; citations omitted). Therefore, on a habeas review of an ineffective
assistance claim, “federal courts are to afford both the state court and the defense attornej' the
benefit of the doubt.” Woods v. Etherton. 136S.Q. 1149,1151 (2016) (emphasis added; quotation
marks omitted). For the following reasons, the Court finds that, under those stringently deferential
standards, it simply cannot be said that relief is warranted with respect to petitioner s ineffective
assistance of counsel claims.
The United States Fifth Circuit Court of Appeals has held: “[Ojnce a guilty plea has been
entered, all nonjurisdictional defects in the proceedings against a defendant are waived. This
includes all claims of ineffective assistance of counsel, except insofar as the alleged ineffectiveness

9

relates to the voluntariness of the giving of the guilty plea.” Smith v. Estelle, 711 F.2d 677, 682
(5th Cir. 1-983) (citations omitted)
As the state courts correctly held, the clearly established federal law with respect to
ineffective assistance of counsel claims was set forth by the United States Supreme Court in
Strickland v. Washington, 466 U.S. 668 (1984). For relief to be granted on such a claim, Strickland
requires that a petitioner show both that counsel’s performance was deficient and that the deficient
performance prejudiced his defense. Id, at 697.
To prevail on the deficiency prong of the Strickland test, a petitionei must demonstrate that
counsel’s conduct fails to meet the constitutional minimum guaranteed by the Sixth Amendment.
See Stvron v. Johnson, 262 F.3d 438, 450 (5th Cir. 2001). “Counsel’s performance is deficient if
it falls below an objective standard of reasonableness." Little v. Johnson, 162 F.3d 855, 860 (5th
Cir. 1998). Analysis of counsel’s performance must take into account the reasonableness of
counsel’s actions in light of all the circumstances. See Strickland, 466 U.S. at 689.

[I]t is

necessary to (judge ... counsel's challenged conduct on the facts of the particular case, viewed as
of the time of counsel’s conduct.’” Lockhart v. Fretwell, 506 U.S. 364, 371 (1993) (quoting
Strickland, 466 U.S. at 690). The petitioner must overcome a strong presumption that the conduct
of his coimsel falls within a wide range of reasonable representation. See Crockett v. McCotter,
796 F.2d 787, 791 (5th Cir. 1986); Mattheson v. King, 751 F.2d 1432, 1441 (5th Cir. 1985).
In order to satisfy the prejudice prong of an ineffective assistance of counsel claim in a
case involving a guilty plea, a petitioner “must show that there is a reasonable probability that, but
for counsel’s errors, he would not have pleaded guilty and would have insisted on going to trial.
Hill v. Lockhart, 474 U.S. 52, 59 (19851; accord James v. Cain, 56 F.3d 662, 667 (5th Cir. 1995).

10

Although the state courts concluded that petitioner’s ineffective assistance claims failed on
i—both prongs of the Strickland-anal-vsis,-this-Court is not required to consider-both prongs. Rather,
if the Court finds that a petitioner has made an insufficient showing on either of the two prongs of
inquiry, i.e. deficient performance or actual prejudice, it may dispose of the ineffective assistance
claim without addressing the other prong. Strickland. 466 U.S. at 697. Here, the undersigned
recommends that petitioner’s claims simply be denied on the prejudice prong for the following
reasons.
Although petitioner asserts that he would not have pleaded guilty but for his counsel’s
purportedly deficient performance,15 this Court is not required to accept such self-serving
statements as true. See Lee v. United States, 137 S. Ct. 1958, 1967 (2017) (“Courts should not
upset a plea solely because of post hoc assertions from a defendant about how he would have
pleaded but for his attorney’s deficiencies. Judges should instead look to contemporaneous
evidence to substantiate a defendant’s expressed preferences.”); Hartshorn v. Prince, Civ. Action
No. 12-1359, 2012 WL 3860469, at *9 (E.D. La. July 30, 2012) (“[Djespite his self-serving
allegations to the contrary, the Court finds that it is not reasonably probable that petitioner would
have rejected this extremely generous plea agreement. As a result, he has not established the
prejudice required to support his claim.”), adopted, 2012 WL 3862352 (E.D. La. Sept. 5, 2012).
In the instant case, the Court finds that petitioner’s assertions are not alone sufficient to meet his
burden of proof in light of the totality of the circumstances.

15 Rec. Doc. 1-1, pp. 5 (“Petitioner would have continued trial if counsel explained these elements that require the
actions of murder.”) and 6 (“Petitioner would have rejected counsel’s advice to plead guilty if these essential elements
were explained to him.”).

11

The indictment charged, inter alia, that petitioner committed the armed robbery and second
-_____degree murder of Helene Jackson,-as well as the attempted second .degree-murders ofKenton and.
Lance Jackson.16 Each one of those crimes carried a severe or potentially severe sentence. The
sentence for second degree murder was mandatory life imprisonment without benefit of parole,
probation, or suspension on sentence, La. Rev. Stat. Ann. § 14:30.1(B), while the sentence for
attempted second degree murder was “not less than ten nor more than fifty years without benefit
of parole, probation, or suspension of sentence,” id, § 14:27(D)(1). The sentence for armed
robbery was “not less than ten years and ... not more than ninety-nine years, without benefit of
parole, probation, or suspension of sentence,” id, § 14:64(B), with mi additional consecutive fiveyear sentence without benefit of parole, probation, or suspension of sentence where, as here, a
firearm w7as used, id, § 14:64.3(A). Further, in addition to those charges, petitioner also faced four
drug charges.
Petitioner was therefore in a precarious position, most especially with respect to the most
serious charge, i.e. that he committed the second degree murder of Ms. Jackson. That is true
because, even now, he does not dispute that he fired the shot that killed her. Rather, he simply
contends that her death was an unfortunate and unintended consequence of his attempt to save
himself.17 However, relying on a self-defense argument is often a risky proposition, and it is even

16 State Rec., Vol 1 of 4, indictment.
.
. ,
17 In his federal application, petitioner stated: “The State Court’s theory was that petitioner arrived at the victim, Ms.
Helen’s house with the intentions to commit robbeiy and murder. In actuality, petitioner was confronted with a life
threatening situation, and was forced to defend himself against two individuals.” Rec. Doc. 1-1, p. 1- Contending
that he was simply at the house to retrieve a gun stolen from him, he alleged:
Petitioner arrived at Ms. Helen’s house; she answered the door and led him upstairs to her
room where he observed the firearm located on the dresser near the entrance of the bedroom. As
petitioner grabbed the firearm of the dresser, she asked if he had any money in exchange for the
firearm. Petitioner expressed his disagreement on buying back his own gun, when suddenly he was
grasped from behind in a chokehold. Petitioner raised the firearm and shots wei e fired in a suiprised,

12

more so in a case, such as this one, in which the state has an eyewitness to rebut that defense (here,
Lance-Jackson), and-the-defendant -has no evewitnesses w'hatsoe\:er to_corroboratejijs_version of
events.
Fortunately, petitioner had another option: a generous plea bargain offered by the state.
Specifically, in exchange for his pleading guilty, the state agreed to (1) reduce the most serious
charge, second degree murder, to manslaughter. (2) drastically reduce petitionei s sentencing
exposure, and (3) dismiss one drug charge entirely.18 By accepting the plea bargain, petitioner
was guaranteed that he would serve no more than forty-five years without benefit of parole,
probation, or suspension of sentence.
Although that term of imprisonment wfas still daunting, it paled in comparison to the total
sentencing exposure petitioner faced on the original charges. In particular, as the state district
court noted, there was a very real possibility he w'oulcl be convicted of second degree murder due
to the overwhelming evidence against him. It so, on that charge alone, he faced a mandatory
sentence of life without parole. The severity of that sentence cannot be overstated. As the United
States Supreme Court has observed:
panic manner, while a male voice from behind shouted, “Get the gun!” and switched from a
chokehold, to a bear hug position. Therefore, locking petitioner’s arms at his side.
Petitioner was able to use his elbows, in a swinging motion, she attempted to yank the gun
away from him. Shots were fired in a panic manner while the two were attacking petitioner and
attempting to yank it from his hands. Ms. Helen collapsed to the ground while petitioner was still
struggling with the person who had grabbed him from behind. During this struggle, more shots
were fired.
.
Petitioner was able to break free, but stumbled and fell to his knee for a moment. Regained
momentum, looked back to see a male, who petitioner recognized as Lance Jackson, sprinted down
the stairs. In that moment, petitioner ran down the stairs and attempted to proceed out the front
door, but encountered gun fire from Lance who had a gun of his own and exchanged gun fire as he
departed the house.
18 TheTtate dismissed the indictment’s sixth count which charged petitioner with possession of hydrocodone. State
Rec., Vol. 4 of 4, transcript of August 12,2015, pp. 4 and 17.

13

It is true that a death sentence is “unique in its severity and irrevocability,” Gregg
v. Georgia. 428 U.S. 153,187,96 S.Ct. 2909,49 L.Ed.2d 859 (1976) (joint opinion
of Stewart, Powell, and STEVENS, JJ.); yet life without parole sentences share
some characteristics with death sentences that are shared by no other sentences.
The State does not execute the offender sentenced to life without parole, but the
sentence alters the offender’s life by a forfeiture that is irrevocable. It deprives the
convict of the most basic liberties without giving hope of restoration, except
perhaps by executive clemency - the remote possibili ty of which does not mitigate
the harshness of the sentence. Solem. 463 U.S., at 300-301, 103 S.Ct. 3001. As
one court observed in overturning a life without parole sentence for a juvenile
defendant, this sentence “means denial of hope; it means that good behavior and
character improvement are immaterial; it means that whatever the future might hold
in store for the mind and spirit of [the convict], he will remain in prison for the rest
of his days.” Naovarath v. State. 105 Nev. 525, 526, 779 P.2d 944 (1989).
Graham v. Florida. 560 U.S. 48, 69-70 (2010). Similarly, one scholar has opined:
At least in jurisdictions without generous early release provisions, life sentences
are practically akin to “death-in-prison sentences” or necessarily beget “death by
incarceration.” A “life term” is a cultural artifact, signifying the recipient’s penal
servitude until the end of his natural life. In other words, the State is thereby
proactively and physically condemning the individual to die within prison walls.
One author posits a life sentence is merely “a semantically disguised sentence of
death.” For the foregoing reasons, the availability of a life sentence has been
referred to as the “new death penalty” or the “other death penalty.”
Alternatively, commentators have contended that life sentences can be more
punitive than capital punishment, while receiving far fewer substantive and
procedural protections. Professor Berry reasonably notes how a life sentence may
be experienced by prisoners as extra brutal: “A death sentence has an end date,
which for some may be less traumatic than imprisonment until one dies of natural
causes. To the extent that living in prison constitutes suffering, life without parole
allows for greater suffering, or at least a longer time for suffering.” Compared to
capital cases, cases resulting in life sentences are procedurally less likely to
necessitate indMdualized-attention-to-thc-oifender’s own characteristics^ re_c_eiye
careful and extensive review, enjoy lengthy appellate processes, or be reversed.
Melissa Hamilton, Some Facts About Life: The Law, Theory, and Practice of Life Sentences, 20
Lewis & Clark L. Rev. 803, 813-14 (2016) (footnotes omitted).
In light of the high probability that a jury would have convicted petitioner of second degree
murder and the severe mandatory sentence he would receive for such a conviction, the Court finds

14

that he has failed to prove that, but for his counsel’s purportedly deficient performance, there is a
.reasonable,probabilityJhatJie3toukUiave_declinedthegenerous_pleabargain_andjnsistecLongoing
to trial. Therefore, he has not established that he was prejudiced by counsel’s performance.
In summary, to be entitled to relief, petitioner must demonstrate that the state court decision
rejecting his ineffective assistance of counsel claims was contrary to, or involved an unreasonable
application of, clearly established federal law, as determined by the Supreme Court of the United
States. He has not made that showing in the instant case. Accordingly, utilizing the AEDPA’s
doubly deferential standards of review applicable to such claims, this Court should likew-ise deny
relief.
B. Invalid Guilty Plea
Lastly, petitioner claims:
Petitioner’s guilty plea was invalid as not having been entered knowingly,
intelligently, and voluntarily under the Due Process Clause of the Fourteenth
Amendment to the United States Constitution when he did not receive notification
of the nature of the charges and its critical elements by the Trial Court or Counsel.19
In the state post-conviction proceedings, the state courts likewise denied that claim on the merits.
On this Court’s review of that state court denial, “[wjhether a guilty plea is valid is a
question of law, although historical facts are entitled to a presumption of correctness. Accordingly,
the inquiry before-this Court is-whethei^.the-denial-o£xeIief was contrary to, or an unreasonable
application of, federal law.” Temple v. Vannoy. Civ. Action No. 18-1536, 2019 WL 3430489, at
*6 (E.D. La. July 30, 2019) (citations omitted). For the following reasons, the Court finds that it
was not.

19 Rec. Doc. 1-1, p. 3.

15

“A guilty plea will be upheld on habeas review if entered into knowingly, voluntarily, and
intelligently.” Montova v. Johnson. 226 F.3d 399, 404 (5th Cir. 2000). For a_p_lea to be
“voluntary,” it must not be “induced by threats, misrepresentation, unfulfilled promises, or
promises of an improper nature.” United States v. Hernandez, 234 F.3d 252, 254 n.3 (5th Cir.
2000). For it to be “knowing” and “intelligent,” “the defendant must have a full understanding of
what the plea connotes and of its consequence. The defendant need only understand the direct
consequences of the plea; he need not be made aware [of] every consequence that, absent a plea
of guilty, would not otherwise occur.” Id at 255 (citation and quotation marks omitted).
Here, there is no evidence that petitioner’s pleas were coerced or induced by
misrepresentations or unfulfilled or improper promises,211 so there is no basis for finding the pleas
involuntary.21

20 On the contrary, petitioner testified in the plea colloquy that no one had forced or threatened him to plead guilty and
that he was entering his pleas freely and voluntarily. State Rec., Vol. 4 ot 4, transcript of August 12, 2015, p. 15.
Likewise, on the plea form, he acknowledged in writing that he had “not in any way been forced, coerced or threatened
to enter this guilty plea.” State Rec., Vol. 1 of 4, guilty plea form.
21 In particular, the Court takes care to note that petitioner’s negotiated pleas were not involuntary simply because
they were motivated by his “desire to accept the certainty’ or probability of a lesser penalty rather than^face a wider
range of possibilities extending from acquittal to conviction and a higher penalty authorized by law fui the ui line
charged.” Brariv v. United States. 397 U.S. 742, 751 (1970). As the United States Supreme Court has noted:
The plea bargaining process necessarily exerts pressure on defendants to plead guilty and to abandon
a series of fundamental rights, but we have repeatedly held that the government may encourage a
guilty plea by offering substantial benefits in return for the plea. While confronting a defendant
with the risk of more severe punishment clearly may have a discouraging effect on the defendant’s
assertion of his trial rights, the imposition of these difficult choices is an inevitable - and pennissible
- attribute of any legitimate system which tolerates and encourages the negotiation of pleas.
United States v. Mezzanatto. 513 U.S. 196, 209-10 (1995) (quotation marks, brackets, and citations omitted). Here,
the fact that petitioner was not particularly enamored of the choices available to him is of no moment, and it in no way
rendered his choice illusory- or his plea coerced.

16

Rather, petitioner’s claim is instead that his pleas were unknowing and unintelligent
because he was.not apprised of the nature and elements of the charges. Regarding such claims,
the United States Supreme Court has held:
A guilty plea operates as a waiver of important rights, and is valid only if done
voluntarily, knowingly, and intelligently, “with sufficient awareness of the relevant
circumstances and likely consequences.’ Brady v. United States, 397 U.S. 742,
748, 90 S.Ct. 1463, 25 L.Ed.2d 747 (1970). Where a defendant pleads guilty to a
crime without having been informed of the crime’s elements, this standard is not
met and the plea is invalid. Henderson v. Morgan, 426 U.S. 637, 96 S.Ct. 2253, 49
L.Ed.2d 108 (1976).
Bradshaw v. Stumnf 545 U.S. 175, 183 (2005). However, the Supreme Court continued:
While the court taking a defendant’s plea is responsible for ensuring “a record
adequate for any review that may be later sought,” Boykin v. Alabama, 395 U.S.
238, 244, 89 S.Ct. 1709, 23 L.Ed.2d 274 (1969) (footnote omitted), we have never
held that the judge must himself explain the elements of each charge to the
defendant on the record. Rather, the constitutional prerequisites of a valid plea may
be satisfied where the record accurately reflects that the nature of the charge and
the elements of the crime were explained to the defendant by his own, competent
counsel. Cf. Henderson, supra, at 647, 96 S.Ct. 2253 (granting relief to a defendant
unaware of the elements of his crime, but distinguishing that case from others where
“the record contains either an explanation of the charge by the trial judge, or at least
a representation by defense counsel that the nature of the offense ha s been explained
to the accused”). Where a defendant is represented by competent counsel, the court
usually may rely on that counsel’s assurance that the defendant has been properly
informed of the nature and elements of the charge to which he is pleading guilty.
Id.
______ T TmUniahlv there are aspects of the instant case that give the Court pause, such as: (1) the
judge did not advise petitioner of the elements of the offenses on the record during the colloquy;
(2) the elements of the offenses were not set forth on the guilty plea form; and (3) petitioner’s
attorneys did not affirmatively state on the record or acknowledge on the guilty plea form that the}'
had ad vised petitioner of the elements of the offenses.

17

Nevertheless, other factors weigh against petitioner. For example, the transcript of the plea
colloquy-reflects-that_the.judge_clearl>Llisted all seven chargesto^whichpetitionerwas pleading
guilty22 and stated: “You heard me yesterday, along with your attorneys and the State’s attorneys
explain again, as I mentioned before, what would have to be proven as to each count,

»23

Further,

the transcript reflects that petitioner acknowledged that he was in fact aware of the charges and
their elements and that he had no questions:
BY THE COURT:
Do you understand everything that I have explained to you regarding what
you are pleading guilty to?
BY THE DEFENDANT:
Yes.
BY THE COURT:
.
t
.
And, you understand each of the elements of those crimes as you heard us
explain them to the j ury yesterday?
BY THE DEFENDANT:
Yes.
BY THE COURT:
Do you have any questions?
BY THE DEFENDANT:
No.24
______Further,-even though defense counsel did not, affirmatively state that they had advised
petitioner of the elements of the offenses, there is a rebuttable presumption that they did so. As
the United States Supreme Court has held:

22 State Rec., Vo). 4 of 4, transcript of August 12, 2015, p. 5.
23 Id, at p. 14.
24 Id, at pp. 15-16.

18

Normally the record contains either an explanation of the charge by the trial
judge, or at least a representation by defense counsel that the nature of the offense
_____ has-been—explained-to .the accused. _Moreover, even without such an express
representation, it may be appropriate to presume that in most cases defense counsel
routinely explain the nature of the offense in sufficient detail to give the accused
notice of what he is being asked to admit.
Henderson v. Morgan. 426 U.S. 637,647 (1976) (emphasis added). That presumption applies here
and has not been adequately rebutted by petitioner.
Despite the foregoing, the Court concedes that there is nevertheless one aspect of the instant
case that remains troubling: the charging document was amended immediately piior to the entry
of the guilty pleas to reduce the charge of second degree murder to the lesser included offense of
man slaughter, and the record is unclear as to whether the previous day's discussion of the elements
of the offenses included the elements of the lesser included offen ses. Although that might appear
to be problematic at first blush, this Court is reassured bv the fact that the United States Fifth
Circuit Court of Appeals found otherwise in an unpublished decision in a case virtually
indistinguishable from the instant one: Smith v. Warden Allen Correctional Center, No. 99-30140,
2000 WL 309964 (5th Cir. Mar. 6, 2000).
In Smith, as in the instant case, Smith was originally charged with second degree murder
but later pleaded guilty to the reduced charge of manslaughter. In his habeas petition, he argued
-that-he-wasmeveMnformed of the elements of manslaughter ancLdid-HOt understand what those
elements are, making his plea constitutionally involuntary. Id. at * 1. The Fifth Circuit noted that
there was no plea form in which defense coimsel stated that they had informed Smith of the nature
of the crime to which he was pleading guilty, and the judge 4 never expressly discussed the
elements of manslaughter” during the plea colloquy. IcL at *2-3. However, after noting that Smith
had excellent counsel and had been given the opportunity to discuss his case with them, the Fifth

19

Circuit then concluded that “[i]t would seem reasonable to assume that his lawyers discussed his
offense in detail-with him-before-he agreed to plead guilty.: -Because Smith_had_nofmet_hi5 burden
to prove otherwise, habeas corpus relief was denied. Id, at *3.
The same logic applies in the instant case. When petitioner entered his pleas, he was
represented by two attorneys, one of whom was Martin Regan, a prominent local criminal attorney
with decades of experience representing criminal defendants. Moreover, the plea colloquy reflects
that petitioner and his counsel were given repeated opportunities and ample time to discuss the
pleas during the colloquy.25 Therefore, as in Smith, there is simply no reason to believe that
counsel failed to discuss the offenses in detail in those and their earliei discussions with petitioner
concerning the plea bargain.
In the end, it must be remembered that petitioner bears the burden of proof with respect to
his claim that his pleas were invalid. Moya v. Estelle, 696 F.2d 329, 332 (5th Cir. 1983). And,
without more, he has clearly fallen short of meeting his burden. of proof in the instant case.
Therefore, he has failed to establish that the state court’s decision denying this claim was contrary
to. or involved an unreasonable application of, clearly established federal law, as determined by
the Supreme Court of the United States. Accordingly, under the AEDPA’s deferential standards
of review, this claim should be denied.

25 State Rec.. Vol. 4 of 4, transcript of August 12,2015, pp. 5 (“BY THE COURT: ... I’ll wait for you to tell me when
vou are done.”). 6 (“BY MR. REGAN: We just need another minute, Your Honor. BY THE COURT: Please take
vour time, as the gentleman is now completing the plea form.”), 7 (“MR. REGAN CONTINUES TO CONFER WITH
HIS CLIENT PRIVATELY. ... MR. REGAN AND MR. BECKMAN CONTINUE TO CONFER PRIVATELY
WITH THEIR CLIENT.”), 9 (BY THE COURT: ... Let die record reflect that the Defendant is how going over this
[plea] form one last time, I presume, with each of his attorneys, privately at the Defense Table. ), 10 ( THE
DEFENDANT CONTINUES TO CONFER WITH HIS COUNSELORS.”), and 15 (petitioner answered “Yes” when
asked if he “had enough time to deliberate and consider this matter and meet with your family members privately and
your attorneys privately”).

20

r

RECOMMENDATION
It is therefore RECOMMENDED that the federal application seeking habeas corpus relief
filed by Thomas Lam be DISMISSED WITH PREJUDICE.
A party’s failure to file written objections to the proposed findings, conclusions, and
recommendation in a magistrate judge’s report and recommendation within fourteen (14) days
after being served with a copy shall bar that party, except upon grounds of plain error, from
attacking on appeal the unobjected-to proposed factual findings and legal conclusions accepted by
the district court, provided that the party has been served with notice that such consequences will
result from a failure to object. 28 U'S.C. § 636(b)(1); Douglass v. United Services Auto. Ass’n,
79 F.3d 1415, 1430 (5th Cir. 1996) (en banc).26
New Orleans, Louisiana, this

27th

day of January, 2020.

UliliL
JANIS ^AN MEERVELD
UNITED STATES MAGISTRATE JUDGE

26 Douglass referenced the previously applicable ten-day period for the filing of objections. Effective December 1,
2009, 28 U.S.C. § 636(b)(1) was amended to extend that period to fourteen days.

21

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
CIVIL ACTION

THOMAS LAM

NO. 19-01785

VERSUS

SECTION: “A”(l)

ROBERT TANNER, WARDEN
ORDER

Petitioner filed a “Request for Production of Documents” and a “Request to Stay
Proceeding for Designation of Record and In Camera Review.” Rec. Docs. 18 and 19. The state
opposed those motions. Rec. Doc. 23. Petitioner filed a reply to the state's opposition. Rec. Doc.
24. For the following reasons, the motions are DENIED.
In the “Request for Production of Documents,” petitioner asks that the Court order the state
to produce (1) transcripts of the trial proceedings which occurred prior to the entry of his guilty
plea and (2) the audio recording of the guilty plea. Those items are unnecessary.
With respect to the transcripts, petitioner alleges that the transcripts would reflect that he
was not adequately advised on the record of the elements of the crimes at issue. Flowever, for the
reasons noted in the Report and Recommendation issued this date, petitioner’s claims for relief
fail even if he was not adequately advised of the elements on the record.
With respect to the audio recording, petitioner alleges that, contrary to what is reflected on
page 5 of the plea colloquy transcript, the recording would show that he answered “No” when he
was initially asked whether he wished for the judge to accept his guilty pleas. However, even if
that occurred, it is of no moment. After that initial question, the transcript reflects that petitioner
engaged in prolonged discussions with his two attorneys regarding his pleas, subsequently signed

the guilty plea forms, and answered “Yes” when he was again asked whether he wished for the
Judge.to accept.the_guiltyiplgas,__State_Rec,,Vol.j4_oL4,Jranscript .of AugusH.2,_2Q15,.pp. 10 and
15. Therefore, even if he expressed some initial reluctance, he clearly later changed his mind and
chose to voluntarily plead guilty .
In the “Request to Stay Proceeding for Designation of Record and In Camera Review,”
petitioner asks that these proceedings be stayed until the foregoing items are produced and
reviewed by the Court. However, because the Court will not order production of the items, a stay
is unnecessary.
New Orleans, Louisiana, this

27th__ day of January, 2020.

SJqj**- A*!
JANIS WAN MEERVELD
UNITED STATES MAGISTRATE JUDGE

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
■THOMAS-LAM

CIVIL ACTION

VERSUS

NO: 19-1785

ROBERT TANNER, WARDEN

SECTION: "A" (1)
JUDGMENT

For the written reasons in the Report and Recommendation of the United States
Magistrate Judge, and the Court having adopted it as its own opinion,
Accordingly;
IT IS ORDERED that there be judgment in favor of the Defendant and against the
Plaintiff Thomas Lam, dismissing the Plaintiffs federal application seeking habeas corpus
relief with prejudice.

February 19, 2020

UNITED STATES DISTRICT JUDGE

Case: 20-30145

Document: 00515775917

Page: 1

Date Filed: 03/11/2021

®mtet> States Court of Appeals
____for tljc Jftftl) Circuit
United States Court of Appeals
Fifth Circuit

No. 20-30145

FILED
March 11, 2021

Thomas Lam

Lyle W. Cayce
Clerk

Petitioner—Appellant,
versus
Robert C. Tanner, Warden,
B. B. Rayburn Correctional Center,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:19-CV-1785

ORDER:
IT IS ORDERED that the Appellant’s motion for leave to file a
supplement to the motion for a certificate of appealability, with incorporated
tlementalargument^sGRANTED,------------------------------------------IT IS FURTHER ORDERED that the Appellant’s motion for a
certificate of appealability is DENIED.
Thomas Lam seeks a certificate of appealability (COA) so he can
appeal the district court’s denial of habeas corpus relief. “ [A] COA will issue
only if the requirements of § 2253 have been satisfied. ” Miller-El v. Cockrell

Case: 20-30145

Document: 00515775917

Page: 2

Date Filed: 03/11/2021

No. 20-30145

537 U.S. 322, 335-36 (2003). “[Section] 2253(c) permits the issuance of a
COA only where a petitioner has made a substantial showing of the denial of
a constitutional right... [U]nder the controlling standard, a petitioner must
sho[w] that reasonable jurists could debate whether. . . the petition should
have been resolved in a different manner or that the issues presented were
‘ adequate to deserve encouragement to proceed further. ” Id. at 336 (internal
quotations and citations omitted).
Lam was charged with second degree murder and faced life in prison
without parole if convicted. On the second day of his trial, Lam pleaded
guilty to various charges, including the lesser included offense of
manslaughter for which he was sentenced to 40 years in prison. He now
asserts his plea was involuntary because he was not informed of the elements
of manslaughter.
A plea is only voluntary, and therefore constitutional, if the defendant
received “real notice of the true nature of the charge against him” which
includes knowledge of the elements of the crime. Henderson v. Morgan,
426 U.S. 637, 645, 96 S. Ct. 2253, 2258 (1976) (internal citations omitted).
Henderson, however, created a rebuttable presumption that, even in the
absence of record evidence, the defendant’s lawyers would have informed
him of the charges:
Normally the record contains either an explanation of the
charge by the trial judge, or at least a representation by defense
explained to the
accused.
Moreover, even without such an express
representation, it may be appropriate to presume that in most
cases defense counsel routinely explain the nature of the
offense in sufficient detail to give the accused notice of what he
is being asked to admit.
Id. at 647.

2

Case: 20-30145

Document: 00515775917

Page: 3

Date Filed: 03/11/2021

No. 20-30145

In an unpublished opinion that is factually analogous to this case,
Smith v. Warden Allen Correctional Center, this court found that the defendant
had not rebutted the presumption.1 No. 99-30140, 2000 WL 309964 at *1
(5th Cir. Mar. 6, 2000). In that case, the defendant was, as here, charged
with second degree murder but pleaded guilty to manslaughter. Id. In his
habeas petition, he claimed “that he was never informed of the elements of
manslaughter and did not understand what those elements are, making his
plea constitutionally involuntary. ” Id. The court noted that there was no
record evidence that defense counsel had discussed the charges with Smith,
and the judge “never expressly discussed the elements of manslaughter”
during the plea colloquy.” Id. at *2-3. However, commenting that Smith
had well qualified counsel, the court concluded that it was “reasonable to
assume that his lawyers discussed his offense in detail with him before he
agreed to plead guilty. ”
In Lam’s case, the magistrate judge’s report, which was adopted by
the district court, notes that Lam also had qualified representation, including
“Martin Regan, a prominent local criminal attorney with decades of
experience representing criminal defendants.” Further, the report noted
that the “petitioner and his counsel were given repeated opportunities and
ample time to discuss the pleas during the colloquy, ” with the Louisiana state
court judge telling the lawyer to “take [his] time.” The court specifically
noted: “ [L]et the record reflect that the Defendant is now going over this
the Defense Table. ” It is also noteworthy that Lam’s counsel had suggested
the plea to the prosecution, which strongly suggests that Lam acquiesced in
it knowingly.

1 Although Smith is an unpublished opinion and is not therefore binding on this court, it is
useful evidence of this court’s treatment of this issue because of the factual similarity.

3

Case: 20-30145

Document: 00515775917

Page: 4

Date Filed: 03/11/2021

No. 20-30145

Accordingly, reasonable jurists could not debate the district court’s
"conclusion that the Henderson presumption applies here,” arid Lam has not
adequately rebutted it. Lam’s ineffective assistance of counsel claim relies
on his involuntary plea argument and consequently fails for lack of
substantiation.
Lam’s appeal of the denial of his request for production of trial
transcripts is not debatable because, as described by Lam, they would not
rebut the Henderson presumption that his experienced lawyer had adequately
informed him of the elements of manslaughter.
COA DENIED.

Edith LrJones
United States Circuit Judge

4

Additional material
from this filing is
available in the
Clerk's Office.

